 OFFICE OF AUDIT
 REGION 7
 KANSAS CITY, KS




     HUD Did Not Effectively Oversee and Manage
     the Receivership of the East St. Louis Housing
                       Authority




2012-KC-0003                           SEPTEMBER 5, 2012
                                                U.S. DEPARTMENT OF
                             HOUSING AND URBAN DEVELOPMENT
                                         OFFICE OF INSPECTOR GENERAL




                                                                         Issue Date: September 5, 2012

                                                                         Audit Report Number: 2012-KC-0003


TO:            Donald J. Lavoy, Deputy Assistant Secretary for Field Operations, PQ

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT:       HUD Did Not Effectively Oversee and Manage the Receivership of the East St.
               Louis Housing Authority


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of HUD’s receivership of the East St. Louis
Housing Authority.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5872.




                                                Office of Audit Region 7
                                  400 State Avenue, Suite 501, Kansas City, KS 66101
                                      Phone (913) 551-5870, Fax (913) 551-5877
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                            September 5, 2012
                                            HUD Did Not Effectively Oversee and Manage the
                                            Receivership of the East St. Louis Housing Authority




Highlights
Audit Report 2012-KC-0003


 What We Audited and Why                     What We Found

We audited the U.S. Department of      HUD did not effectively oversee and manage the
Housing and Urban Development’s        recovery and turnaround of the Authority.
(HUD) receivership of the East St.     Specifically, it did not have an adequate structure for
Louis Housing Authority. We selected   its staff and did not develop a receivership plan
this audit based on the length of      specific to the Authority. This condition occurred
                                       because HUD did not have consistent leadership in its
receivership and issues identified during
                                       Office of Receivership Oversight (ORO). As a result,
recent external audits of the Authority.
                                       the Authority continued to be under receivership after
Our objective was to determine whether 26 years and has continued to experience significant
HUD effectively oversaw and managed management and operational deficiencies.
the recovery and turnaround of the
Authority during the three period
ending in September 2011.

 What We Recommend

We recommend that HUD develop and
implement a receivership plan for the
Authority. We also recommend that
HUD improve its structure for
managing receiverships, permanently
fill the director position within ORO,
and develop adequate accountability
mechanisms for HUD staff whose
primary responsibilities involve
receiverships.
                          TABLE OF CONTENTS


Background and Objectives                                                   3

Results of Audit
     Finding: HUD Did Not Effectively Oversee and Manage the Receivership   4
                 of the Authority

Scope and Methodology                                                       9

Internal Controls                                                           10

Appendixes
A.   Auditee Comments and OIG’s Evaluation                                  11
B.   Summary of Reviews and Monitoring Scores                               13




                                         2
                      BACKGROUND AND OBJECTIVES

The role of the U.S. Department of Housing and Urban Development’s (HUD) Office of Public
and Indian Housing is to ensure safe, decent, and affordable housing; create opportunities for
residents’ self-sufficiency and economic independence; and ensure fiscal integrity by all program
participants.

The East St. Louis Housing Authority provides housing to low-income families, the elderly, and
people with disabilities in St. Clair County, IL. It owns and operates more than 1,900 units of
public housing within East St. Louis and serves more than 600 households using the Section 8
voucher program. During the past 3 years, the Authority has received more than $69 million in
HUD funding.

The Authority is one of seven public housing authorities under an administrative receivership.
Administrative receivership is a process whereby HUD declares a public housing authority in
substantial default of its annual contributions contract and takes control of the authority under the
powers granted to the HUD Secretary by the United States Housing Act of 1937 as amended.
Under administrative receiverships, HUD appoints one or more HUD staff members to work
onsite at the housing authority to manage and operate the housing authority’s operations and
conduct the affairs of the housing authority. HUD provides oversight in a manner consistent
with the statutory, regulatory, and contractual obligations of the housing authority. The
Authority has been under receivership since 1985.

For the administrative receivership of the Authority, HUD has chosen not to appoint staff to
work onsite at the Authority. Instead, a HUD representative serves part time as the Authority’s
board of commissioners. An employee from the Milwaukee, WI, field office was appointed as
the Authority’s receiver beginning in April 2011. Before that, an employee from the Chicago,
IL, regional office served as the receiver for approximately 9 years. Each of these receivers
served in this position in addition to normal supervisory positions in their respective offices.

In February 2007, the Office of Receivership Oversight (ORO) was formally established and
given the authority to manage, monitor, and provide ultimate oversight for public housing
authorities placed in receivership status. This office is run by an Acting Director, who also
serves as the full-time Director of the Office of Field Operations. ORO was headed by a
dedicated full-time Director from March 2010 until June 2011. Before that, the position was
held by a political appointee.

The mission of ORO is to oversee and manage the recovery and turnaround of housing
authorities under HUD administrative receivership, leading to the eventual return of the public
housing authorities to local control.

Our objective was to determine whether HUD effectively oversaw and managed the recovery
and turnaround of the Authority during the three-year period covering October 2008 through
September 2011.


                                                 3
                                                   
                                RESULTS OF AUDIT


Finding: HUD Did Not Effectively Oversee and Manage the
Receivership of the Authority
HUD did not effectively oversee and manage the recovery and turnaround of the Authority. This
condition occurred because HUD did not have consistent leadership in ORO. As a result, the
Authority continued to be under receivership after 26 years and has continued to experience
significant management and operational deficiencies.




 HUD Did Not Effectively
 Oversee and Manage the
 Authority

              HUD did not effectively oversee and manage the recovery and turnaround of the
              Authority during the three year period ending in September 2011. Specifically, it
              did not have an adequate structure in place for its staff and did not develop a
              receivership plan specific to the Authority.

              In an October 2006 briefing related to the establishment of ORO, HUD
              acknowledged that the management situation for receiverships was confusing and
              needed improvement. It noted that there were no standardized procedures for
              handling receiverships and that the Office of Field Operations was handling them
              on an ad hoc basis and did not have time for receiverships. These conditions
              persisted during our review period.

              Lack of Adequate Structure
              HUD did not have a clear structure laying out the roles and responsibilities of the
              HUD-appointed receiver, ORO staff, and other HUD field and program staff to
              ensure that staff could easily coordinate to aid in the recovery and turnaround of
              the Authority. While the receiver and the ORO employee working with the
              Authority’s receivership had received some guidance for their positions, it was
              not comprehensive or official. HUD also did not have guidance specifying how
              much time the receiver should allocate to the role. For the Authority’s
              receivership, the receivers were expected to continue in their normal supervisory
              roles which only allowed them a limited amount of time to serve as receiver.

              HUD’s regional structure also did not allow for significant presence at the Authority.
              Because the Authority is located in Region 5, HUD appointed a receiver located 300
              miles away in the Chicago regional office and later one 370 miles away in the

                                                4
                                                  
           Milwaukee field office despite there being a Region 7 HUD office located only five
           miles from the Authority. Due to these geographical limitations and the limited time
           nature of the receiver role, the majority of the time the receivers’ devoted to the
           Authority was spent traveling to and attending the monthly board meetings in East
           St. Louis.

           Further, the roles and responsibilities of the receivers and ORO employee
           assigned to the Authority were not clearly or consistently included in employee
           performance plans. The receiver role was not listed as a critical element or
           standard in the current or former receivers’ performance plans. Additionally,
           while the fiscal year 2011 performance plan for the ORO employee assigned to
           the Authority included some measurable goals, the fiscal year 2012 plan did not.

           Lack of Receivership Plan for East St. Louis
           HUD did not have a written plan guiding the recovery of the Authority. While
           HUD Web pages discuss a five-phase process for receiverships that included
           situation assessment, stabilization, recovery plan development, recovery plan
           implementation, and transition and sustainability, this process was never fully
           developed and was not implemented for use with HUD’s receivership of the
           Authority.

           HUD had informal goals to prepare the Authority to be turned back to the City of
           East St. Louis. However, it did not have a written plan that included measurable
           goals and required assessments throughout the receivership to ensure that HUD
           was aware of any current or developing operational issues at the Authority.

HUD Did Not Have Consistent
Leadership

           HUD did not have consistent leadership in ORO. The office was originally
           approved for up to seven staff positions, including a director, who would report
           directly to the Assistant Secretary for Public and Indian Housing. The office had
           not been fully staffed, and the roles and responsibilities of staff fluctuated
           significantly throughout our audit period. The role of director had been filled by
           several people since the office was established and had not consistently been a
           full-time position. The current Acting Director also serves as the full-time
           Director of the Office of Field Operations. His primary involvement with
           receiverships had been reviewing monthly status reports and working on the
           required quarterly receivership reports to Congress. HUD was not consistent in
           its submission of these reports, having submitted several reports late and reports
           covering 4-to-6-month periods on several occasions.

           The former full-time ORO Director indicated that she was in the process of
           revising outdated unused policies and developing new ones during her tenure but
           that they were not fully drafted or operational. The current Acting Director had


                                            5
                                              
           not continued the development of policies and procedures since he took over in
           June 2011.

Recent Developments

           The current receiver had made strides in expanding the role beyond attending the
           monthly board meetings. For example, he was trying to obtain additional training
           for Authority employees in the areas of property management, financial and site-
           based budgeting, and contract administration and procurement.

           In September 2011, HUD began its rollout of a new program called the Public
           Housing Authority Recovery and Sustainability Initiative (PHARS). While this
           initiative is designed for troubled housing authorities, not specifically for those
           under receivership, a PHARS team had been assigned to the Authority. The team
           did not plan to use the full PHARS approach; however, it was not yet clear how
           its work would affect or interact with the receivership process.

The Authority Has Remained in
Receivership for 26 Years

           The Authority continued to be under receivership after 26 years and has continued to
           experience significant management and operational deficiencies. While the
           Authority was under receivership, HUD should have been working to ensure that the
           Authority was operating properly and in a manner consistent with its statutory,
           regulatory, and contractual obligations, preparing it to be turned back to local
           control. However, during our review period, various reviews and monitoring scores
           identified extensive issues at the Authority.

           Monitoring Scores
           The Authority received troubled and substandard performance scores in both the
           Public Housing Assessment System (PHAS) and Section 8 Management
           Assessment Program (SEMAP) assessments in 2010 and 2011.

                                    2010        2011
                  PHAS category  Substandard Substandard
                                  Physical   management
                  SEMAP category  Troubled    Troubled

           For the Section 8 score, the Authority was listed as troubled in 2010 due to reporting
           issues. After a confirmatory review, the Authority was again listed as troubled for
           2011 due to inspection issues and various calculation and income indicators.

           HUD Reviews
           During a 2009 onsite review, HUD found systemic errors in tenant files related to
           utility allowance calculations and verifications of tenant Social Security numbers,

                                             6
                                               
             income, assets, and expenses. HUD concluded that the tenant files were not
             organized and were difficult to audit and cited a lack of knowledge of requirements
             and a lack of quality control procedures. It also found that the Authority
             overreported on its 2009 SEMAP score.

             During a 2010 Recovery and Reinvestment Act of 2009 review, HUD determined
             that more than $50,000 spent by the Authority was for an operational expense and,
             therefore, not allowed.

             Financial Statement Audits
             The Authority received several findings during its 2009, 2010, and 2011 financial
             statement audits. The findings included several material misstatements as well as
             issues related to the Authority’s public housing and Section 8 tenant files, housing
             quality inspections, and waiting list.

             Office of Inspector General Audits
             Since 2008, HUD’s Office of Inspector General (OIG) had performed three audits
             identifying issues in the Authority’s use of public housing, Section 8, and Recovery
             Act funds. The Authority did not comply with requirements for procurement and
             contract management, capital fund draws, and unit health and safety. The related
             audit reports cited inadequate internal controls, a lack of awareness and
             understanding of requirements, and management issues at the Authority.

             During our audit period, HUD was also aware of issues regarding the Authority’s
             conversion to asset management, submission of annual PHA plans, and processing
             of environmental reviews. Appendix B provides more information on these issues
             and on the reviews and monitoring scores discussed above.

Conclusion

             Because HUD had not effectively overseen and managed the receivership, it did
             not have assurance that the Authority was operating properly and in a manner
             consistent with its statutory, regulatory, and contractual obligations. Further, it
             did not have assurance that the Authority was prepared to operate independently
             or be turned back to local control. This condition is illustrated by the extensive
             management and operational deficiencies present at the Authority despite 26 years
             in receivership.

             HUD needs to improve its structure for managing receiverships and develop a
             receivership plan for the Authority with continual assessments, decision points,
             measurable goals, and accountability mechanisms. If HUD implements our
             recommendations, we believe that it will be in a position to address the persisting
             and developing issues at the Authority and help move the Authority toward a
             successful recovery.



                                               7
                                                
Recommendations

          We recommend that the Deputy Assistant Secretary for Field Operations

          1A.     Develop and implement a receivership plan for the Authority that includes
                  sufficient assessments (of Authority progress and HUD resources needed),
                  decision points, measurable goals, and accountability mechanisms.

          1B.     Permanently fill the director position within the ORO with a full-time staff
                  person.

          1C.     Develop and implement adequate policies and procedures to improve its
                  structure for managing receiverships. These policies and procedures should
                  detail the roles and responsibilities of receivers, ORO, and other field and
                  program staff needed to aid in the recovery and turnaround of public housing
                  authorities under receivership.

          1D.     Develop adequate accountability mechanisms for HUD staff whose primary
                  responsibilities involve receiverships (such as HUD-appointed receivers and
                  ORO staff).




                                            8
                                             
                        SCOPE AND METHODOLOGY

To accomplish our audit objective, we

      Interviewed the current and former HUD-appointed receivers for the Authority.
      Interviewed current and former employees of ORO.
      Interviewed HUD regional staff with responsibilities related to the Authority.
      Reviewed recent monitoring scores and HUD reviews of the Authority.
      Reviewed recent HUD OIG audit reports related to the Authority.
      Reviewed the Authority’s financial statement audits.
      Reviewed monthly and quarterly reports on receivership.
      Reviewed HUD’s policies and procedures.
      Reviewed documentation maintained by the current and former receivers.
      Reviewed performance appraisals for the current receiver, former receiver, and current ORO
       employee.

We performed our audit between October 2011 and May 2012. We conducted field work at
HUD headquarters at 451 7th Street Southwest, Washington, DC; the Chicago regional office
located at 77 West Jackson Boulevard, Chicago, IL; and the Milwaukee field office located at
310 West Wisconsin Avenue, Milwaukee, WI.

Our audit generally covered the period October 1, 2008, through September 30, 2011. We
expanded our period as necessary to account for the recently issued HUD OIG report on the
Authority’s Recovery Act funds and to account for recent developments that affect the
receivership.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               9
                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over the management of receiverships.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                     HUD did not have adequate policies and procedures for its receivership (see
                      finding).




                                                 10
                                                   
                                APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                Auditee Comments




Comment 1




Comment 2




                        OIG Evaluation of Auditee Comments

                                       11
                                         
                         OIG Evaluation of Auditee Comments

Comment 1   We agree with HUD’s plan to convene a team to consider the OIG findings,
            examine the leadership of ORO, and recommend a course of action for its
            receivership of the Authority. As explained in the report, we recommend that
            HUD improve its structure for managing receiverships, permanently fill the
            director position within ORO, and develop accountability mechanisms for staff
            whose primary responsibilities involve receiverships. We also recommend that
            HUD develop and implement a receivership plan for the Authority that includes
            sufficient assessments (of Authority progress and HUD resources needed),
            decision points, measurable goals, and accountability mechanisms.

Comment 2   As illustrated in our finding and Appendix B, various reviews and monitoring
            scores throughout our audit period identified extensive issues at the Authority.
            Some areas where the Authority had repeated findings from various sources
            include inspections and property condition, tenant eligibility, and annual
            reexaminations. Additionally, HUD was aware of issues regarding the
            Authority’s conversion to asset management, submission of annual PHA plans,
            and processing of environmental reviews.

            Because these issues existed and persisted during the receivership, we recommend
            that HUD’s plan for the receivership going forward include continual
            assessments, measurable goals, and accountability mechanisms.




                                            12
                                               
Appendix B

     SUMMARY OF REVIEWS AND MONITORING SCORES


Public Housing Assessment System (PHAS) Score

The Public Housing Assessment System (PHAS) Score measures four major operational areas:
physical, financial, management, and resident satisfaction. For the fiscal year ending in 2011,
HUD added a new capital fund indicator, which was previously part of the management
indicator.

While the Authority was assigned standard designations for its PHAS score in both the 2008 and
2009 fiscal years, it received substandard designations for the 2010 and 2011 fiscal years.
Detailed information on the 2010 and 2011 scores is shown in the chart below.

                                 2010                2011
                                           2010                2011
                                Maximum             Maximum
                                           Score               Score
                                 Score               Score
         Physical Indicator       30        14        40        25
         Financial Indicator       30       23         25       20
         Management Indicator      30       26         25       10
         Resident Indicator        10        8        n/a       n/a
         Capital Fund Indicator   n/a       n/a       10        10
         Total                    100       71        100       65
         Overall PHAS                   Substandard         Substandard
         Designation                     Physical           Management

On October 13, 2011, the Chicago Field Office Director sent the current HUD representative a
letter requesting a proposed recovery plan within 30 days based on the 2010 score of 71 points.
The letter also indicated that HUD was initiating actions to develop and execute a binding
Recovery Agreement with the Authority, as required by statute, to document and ensure that
recovery efforts have been put into place.

Section 8 Management Assessment Program (SEMAP) Performance Ratings

The Section 8 Management Assessment Program (SEMAP) measures 14 key performance areas
of public housing agencies that administer the housing choice voucher program. SEMAP is used
to remotely measure performance based on information submitted to HUD’s database of tenant
information and audits conducted annually by independent auditors. If a housing authority is
assigned an overall performance rating of troubled, HUD will conduct an on-site review to assess
the magnitude and seriousness of the problems.
The Authority was assigned high performance ratings on its 2008 and 2009 SEMAP scores.
However, HUD found that the Authority had overreported on its 2009 SEMAP score (see 2009

                                               13
                                                 
HUD Review summary below). Since then, the Authority received an overall performance
rating of troubled for the 2010 and 2011 fiscal years.

According to HUD staff, the Authority’s 2010 SEMAP Performance Rating was troubled in
2010 due to reporting issues. Based on this rating, the Authority underwent a confirmatory
review in August 2011 to get off of the troubled list. However, while the Authority had self-
certified to a score of 100 percent for the 2011 period, HUD’s review of the Authority’s files
found that
     The Authority did not have signed contracts and leases in all tenant files reviewed.
     The Authority did not verify and calculate tenant rent correctly.
     The Authority did not complete annual reexaminations in a timely manner.
     The Authority did not complete annual inspections in a timely manner.
     The Authority did not re-inspect the required number of units.
     The Authority did not meet the required 30-day time period for correcting non-life
        threatening deficiencies identified during inspections.

Based on these review results, HUD adjusted the SEMAP score to 80 points, which is 55 percent
of the 145 points possible. Therefore, the Authority’s overall performance rating for the fiscal
year ending 3/31/2011 was troubled. Detailed information on both the 2010 and 2011 scores is
shown in the chart below.

                                                          2010          2011          2011
                                          Maximum
 Indicator Number                                       SEMAP          SEMAP       Confirmed
                                           Score
                                                       Certification Certification   Score
 1 - Selection from Waiting List              15            15            15           15
 2 - Reasonable Rent                           20           15            20           20
 3 - Determination of Adjusted Income         20            15            20            0
 4 - Utility Allowance Schedule                5             0             5           5
 5 - HQS Quality Control                       5             0             5           0
 6 - HQS Enforcement                          10            10            10            0
 7 - Expanding Housing Opportunities            5            5             5            5
 8 - Payment Standards                         5             5             5           5
 9 - Timely Annual Reexaminations             10             0            10            0
 10 - Correct Tenant Rent Calculations         5             0             5           0
 11 - Pre-Contract HQS Inspections              5            0             5            0
 12 - Annual HQS Inspections                  10             0            10            0
 13 - Lease-up                                 20           20            20           20
 14 - Family Self-Sufficiency                  5             0             5           10
 Total Points                                 145           85           145           80
 Total Percentage                                          59%          100%          55%
 Overall Performance Rating                                             High
                                                        Troubled                    Troubled
                                                                      Performer

Based on the 2010 rating, the Authority was required to submit a corrective action plan by
October 28, 2011. The Authority submitted a plan on November 4, 2011.

                                                14
                                                  
2009 HUD Review

In August 2009, HUD performed a Tier II Review of the Authority. The purpose of this type of
review is to address improper payments and other high-risk elements.

During this onsite review, HUD found systemic errors in tenant files related to utility allowance
calculations and verifications of tenant Social Security numbers, income, assets, and expenses.
HUD concluded that the tenant files were not organized and were difficult to audit and cited a lack
of knowledge of requirements and a lack of quality control procedures. It also found that the
Authority overreported on its 2009 SEMAP score. Summary information on HUD’s findings is
included in the chart below.


Review Section                                        Summary of Findings

                          Finding 1 – The Authority did not always obtain written third party
                           verification of information related to income, assets, expenses, and
                           other factors that affect the determination of adjusted income or
                           income-based rent.
                         Finding 2 – The Authority did not maintain a copy of the
                           documentation used to verify social security numbers for all members
                           of the household in some files.
Rental Integrity
                         Finding 3 – The Authority did not complete some annual
Monitoring
                           reexaminations in a timely manner.
                         Finding 4 – The Authority did not accurately calculate utilities paid by
                           the tenant.
                         Finding 5 – The Authority’s section 8 files were missing information
                           and contained errors on annual reexaminations.
                         Finding 6 – The Authority’s public housing files were missing
                           information and contained errors on annual reexaminations.
Up-front Income         The review report did not cite any findings in this area.
Verification
                           Finding 7 – The Authority did not follow proper procedures for
                            administering it section 8 waiting list and mishandled four people on
                            the list.
                           Finding 8 – The Authority did not update its utility allowance schedule
Section 8                   based on the typical costs.
Management                 Finding 9 – The Authority could not provide supporting documentation
Assessment Program          necessary to demonstrate that it has a system in place for compliance
                            with the housing quality standards quality control inspections.
                           Finding 10 – The Authority could not show that 98% of newly leased
                            units passed housing quality standards inspections before the beginning
                            date of the assisted lease and HAP contract.
Financial                  Finding 11 – The Authority does not have a valid general depository
Management Review           agreement.


                                                 15
                                                   
Financial Statement Audits

While the Authority received unqualified reports on its financial statements each year, the
auditors identified both material weaknesses in internal controls over financial reporting and
significant deficiencies in internal controls over federal programs each year. For the 2011 fiscal
year, they also identified material weaknesses in controls over federal programs.

The findings cited several material misstatements as well as issues related to the Authority’s
public housing and Section 8 tenant files, housing quality inspections, and waiting list. The
following chart summarizes the findings identified each year.

 Finding
  Year /                    Finding Area                                   Status
 Number
              Control and Review of Certain General       This finding was cleared during fiscal
 2009-01
              Ledger Accounts                             year 2010.
              Public Housing Low Rent Program -           A similar finding was noted during
  2009-02
              Tenant File Deficiencies                    fiscal year 2011 (see 2010-02).
              Material Adjustments to Financial           A similar finding was noted during
  2010-01
              Statements                                  fiscal year 2011 (see 2011-01).
              Public Housing Low Rent Program –           This finding was cleared during fiscal
  2010-02
              Eligibility                                 year 2011.
              Public Housing Low Rent Program –           This finding was cleared during fiscal
  2010-03
              Waiting List                                year 2011.
              Material Adjustments to Financial
  2011-01                                                 n/a
              Statements
              Housing Choice Voucher Program –
  2011-02                                                 n/a
              Eligibility and Reporting
              Housing Choice Voucher Program –
  2011-03                                                 n/a
              Housing Quality Standards
  2011-04     Capital Fund Program – Reporting            n/a
Note – The fiscal year 2009 financial statement audit also cited three findings related to HUD
and HUD OIG reviews. These findings were all listed as closed by HUD regional management
on the 2010 report.

Office of Inspector General Audits

Audit Report No. 2012-KC-1002
Issue Date: March 2, 2012
Title: The East St. Louis Housing Authority Did Not Properly Manage or Report on Recovery
Act Capital Funds

       HUD OIG audited the Authority’s American Recovery and Reinvestment Act of 2009
       Public Housing Capital Fund program. Our audit objective was to determine whether the
       Authority complied with applicable procurement requirements and properly managed its


                                                16
                                                  
       Recovery Act contracts, properly drew down and expended funds for eligible activities,
       and properly reported its Recovery Act activities.

       We concluded that the Authority (1) improperly awarded Recovery Act-funded contracts,
       (2) improperly approved change orders, (3) did not enforce the fair labor standards
       prevailing wage rate requirements in its contracts, (4) paid for a Recovery Act contract
       before receiving HUD approval to obligate or expend the funds, (5) improperly drew
       down all of its administrative fees, and (6) reported incomplete and inconsistent
       information on the number of jobs created and the amounts expended on Recovery Act
       contracts.

       These conditions occurred because the Authority misunderstood some requirements, was
       unaware of other requirements, and had inadequate controls.

       As a result, the Authority used Recovery Act funds for more than $2.3 million in
       unsupported expenses and $47,000 in ineligible expenses and failed to ensure that all
       contractors paid the appropriate wages, and its reported use of Recovery Act funds was
       not accurate.

Audit Report No. 2011-KC-1002
Issue Date: March 1, 2011
Title: The East St. Louis, IL Housing Authority Drew Capital Funds for Unsupported and
Ineligible Expenses

       HUD OIG audited the Authority’s Public Housing Capital Fund program. Our audit
       objective was to determine whether the Authority had proper support for its capital fund
       draws. We concluded that the Authority drew down grant funds for ineligible items and
       without adequate support. Specifically, it made unsupported draws, excessive
       administration draws, draws for force account labor without prior approval, draws above
       the invoiced amount, and duplicate draws. This condition occurred because the Authority
       had inadequate internal controls and management circumvented the normal process in an
       attempt to meet the disbursement deadline. As a result, HUD had no assurance that
       $171,687 in capital funds was properly spent.

Audit Report No. 2009-KC-1005
Issue Date: March 2, 2009
Title: The East St. Louis, Illinois, Housing Authority’s Section 8 Voucher Program Units Did
Not Always Meet HUD’s Housing Quality Standards

       HUD OIG audited the Authority’s Section 8 Housing Choice Voucher program. Our
       audit objective was to determine whether the Authority’s Section 8 program units met
       HUD’s housing quality standards. We found that 79 percent of the Authority’s Section 8
       program units materially failed to meet HUD’s housing quality standards. The violations
       occurred because Authority inspectors lacked knowledge of the requirements. Most of
       the inspectors had not recently received housing quality standards training and were
       unaware of requirements in the Authority’s administrative plan. As a result, the

                                              17
                                                
       Authority’s tenants were subjected to health- and safety-related violations, and the
       Authority paid more than $64,000 in housing assistance for units that materially failed to
       meet housing quality standards.

Other Deficiencies Identified by HUD

Conversion to Asset Management
      In March 2010, HUD notified the Authority that it had not demonstrated a successful
      conversion to asset management based on reviews completed by Nan McKay, a private
      vendor. The referenced review reports summarized deficiencies previously identified in
      the Authority’s Year 2 Submission and indicated whether the Year 3 Submission met the
      requirements for those same criterion.
                                                Year 2 Submission Year 3 Submission
      Criterion 1 – Project Based Accounting            Fail                Fail
      Criterion 2 – Project-Based Management            Fail                Fail
      Criterion 3 – Central Office Cost Center          Fail                Fail
      Criterion 4 – Centralized Services                Fail                Pass

       For criterion 1, the vendor concluded that the Authority’s operating budgets are not
       considered reasonable and its operating statements do not meet asset management
       requirements. For criterion 2, the vendor concluded that the AMPs continue to be under-
       managed and poorly maintained. The vendor also found that financial records are
       inconsistent and appear to be duplicated with different results. For criterion 3, the vendor
       indicated that the Authority had not demonstrated that the Central Office Cost Center was
       financially feasible based on a review of the submitted operating statements. For
       criterion 4, the vendor found that the Authority had established reasonable fees for central
       maintenance and appeared to be in compliance with the criterion requirements.

Submission of Annual PHA Plans
      The Authority had issues with the annual PHA plan process for the past 10 years.
      According to HUD regional staff, the Authority
           Did not consistently have a Plan approved at the initial review threshold.
           Did not consistently follow Headquarters and field office instructions concerning
              the creation of their Plan, file types to be used, and submission procedures.
           Appeared to be resistant to following field office instructions to correct their
              initial submission.
      HUD indicated that the Authority may need training and assistance before submitting its
      next plan.

Processing of Environmental Reviews
       The Authority had issues with the environmental review process for its developments.

       Prior to 2011, the City of East St. Louis performed environmental reviews for the
       Authority under 24 CFR Part 58. However, after a 2011 HUD OIG audit report revealed
       extensive issues in the city’s Community Development Block Grant Program (2011-KC-
       1001), HUD discovered that the city’s Part 58 environmental reviews were deficient.

                                               18
                                                  
Based on this discovery, HUD began performing the environmental reviews for the
Authority under 24 CFR Part 50.

According to HUD regional staff, the Authority has had several issues with the Part 50
process. For example, the Authority’s phase two reports often lacked detail and did not
indicate why testing was performed, why issues were cleared, or include the supporting
documentation. HUD indicated that it was often difficult to get correct information from
the Authority and that the Authority did not have anyone on staff who understood the
environmental review process and standards. Because the city has flood plain and site
contamination issues, it is important that the Authority have staff that have environmental
backgrounds and can work with environmental consultants.

HUD indicated that the Part 58 reviews previously performed by the City of East St.
Louis had issues as well and that additional flood plain and contamination remediation
work should have been completed for at least one development site reviewed under the
Part 58 process.




                                        19
                                          
